<html>
<title> - TRAINING FEDERAL EMPLOYEES TO BE THEIR BEST</title>
<body><pre>[Senate Hearing 106-682]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-682

 
                    TRAINING FEDERAL EMPLOYEES TO BE
                               THEIR BEST

=======================================================================


                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
        RESTRUCTURING, AND THE DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION


                               __________

                              May 18, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
66-087 cc                   WASHINGTON : 2000

_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                  Darla D. Cassell, Administrive Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                  GEORGE V. VOINOVICH, Ohio, Chairman
WILLIAM V. ROTH, Jr., Delaware       RICHARD J. DURBIN, Illinois
JUDD GREGG, New Hampshire            ROBERT G. TORRICELLI, New Jersey
                  Kristine I. Simmons, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                     Julie L. Vincent, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Akaka................................................    11

                               WITNESSES
                         Thursday, May 18, 2000

Hon. John U. Sepulveda, Deputy Director, U.S. Office of Personnel 
  Management.....................................................     5
Hon. Diane M. Disney, Ph.D., Deputy Assistant Secretary, Civilian 
  Personnel Policy, Department of Defense........................     7
Michael Brostek, Associate Director, Federal Management and 
  Workforce Issues, General Government Division, U.S. General 
  Accounting Office..............................................     9

                     Alphabetical List of Witnesses

Brostek, Michael:
    Testimony....................................................     9
    Prepared statement...........................................    46
Disney, Hon. Diane M.:
    Testimony....................................................     7
    Prepared statement...........................................    38
Sepulveda, Hon. John U.:
    Testimony....................................................     5
    Prepared statement...........................................    19

                                Appendix

Prepared statements from:
    Tina Sung, President and Chief Executive Officer, American 
      Society for Training and Development.......................    61
    Bobby L. Harnage, Sr., National President, American 
      Federation of Government Employees.........................    69
    Thomas J. Mosgaller, Vice President, American Society for 
      Quality....................................................    79
    Hon. Deidre Lee, Acting Deputy Director for Management, 
      Office of Management and Budget............................    85
Letter to Senator Voinovich from Bobby L. Harnage, National 
  President, American Federation of Government Employees, AFL-CIO    90
American Society for Training and Development (ASTD) responses to 
  questions......................................................    93



              TRAINING FEDERAL EMPLOYEES TO BE THEIR BEST

                              ----------                              


                         THURSDAY, MAY 18, 2000

                                       U.S. Senate,
     Oversight of Government Management, Restructuring,    
                 and the District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich and Akaka.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning. The hearing will please 
come to order. I want to thank all of you for coming. Today, 
the Subcommittee on Oversight of Government Management will 
discuss a critically important element in getting the 
government to run at peak efficiency, and that is training 
Federal employees to be their best. This is the sixth hearing 
we have held as part of our effort to empower Federal employees 
and address the human capital crisis now facing our Nation.
    Our primary purpose today is to broadly examine the Federal 
Government's commitment to train and educate its employees to 
maintain their skills, enhance their performance, and ensure 
they are able to keep pace with the ever-changing needs of the 
American public. Just like incentives, training is a vital 
component in making a world-class civil service. It is an 
investment in the most important resource that we have, our 
people, and the best way to ensure quality in government 
programs.
    The Federal Government employs nearly two million people in 
thousands of offices worldwide. Regardless of occupation, there 
are workplace trends that affect all Federal employees. For 
example, I am concerned that some employees may not have the 
necessary skills, particularly the high-technology skills, that 
will be necessary to thrive in our technology-driven economy.
    There is a realization across the government that 
technology is transforming the private sector workplace at a 
pace which government cannot currently match. Many of you might 
be familiar with the initiative that was proposed by the 
administration back in January to create a ``cyber corps'' to 
bolster the government's ranks of highly skilled computer 
experts. We must ask ourselves, does the Federal Government 
have the strategic plan in place that will allow it to embrace 
this workplace transformation, and if not, what do we need to 
do?
    These are extremely important and timely concerns. As many 
of you have probably heard, there is a human capital crisis 
confronting the government. By 2004, 32 percent of the Federal 
workforce will be eligible for regular retirement and an 
additional 21 percent will be eligible for early retirement. 
Taken together, that is over 900,000 people.
    If the economic expansion continues, the government will be 
hard pressed to hire enough new workers to fill the shoes of 
baby boomers who entered government service in large numbers in 
the 1960's and 1970's. Today's college graduating senior is 
less likely to enter government service than his counterparts 
some 30 years ago. The Federal Government must act to counter 
this trend by offering the training and incentives that will 
make the Federal Government a more attractive place to work.
    When I began to examine the management of human capital, I 
asked my staff to obtain the training budgets of all Federal 
agencies so that we could review the level of investment being 
made in our employees. I was surprised to learn that neither 
the Office of Management and Budget nor the Office of Personnel 
Management collected this information.
    Therefore, we went directly to the agencies for this 
information. Through this survey, I discovered to my further 
surprise that most Federal agencies do not have ``training 
budgets.'' Rather, training money is dispersed throughout 
agency budgets in operations or administration accounts. It 
takes a great deal of effort on behalf of an agency to pull 
this information together from the different parts of the 
budget to present a complete picture of training activities.
    It was my intention to ask the Office of Management and 
Budget about this convoluted budget structure and their role in 
setting agency training budgets. Unfortunately, I cannot ask 
them these questions today. OMB informed the Subcommittee that 
because of scheduling conflicts, they would be unable to 
provide a witness today.
    I think it speaks poorly of the management side of OMB that 
they have so few senior officials versed in these issues that 
testifying before the Management Oversight Subcommittee 
presents a problem. This is the second management hearing--the 
first was the Subcommittee's March 9 hearing on human capital--
to which they have not sent a witness.
    I am not the only one on this Subcommittee that has 
observed it is ``OB'' with no ``M,'' no management.
    I would like to come back to the survey of training budgets 
that the Subcommittee is conducting. Through this survey, we 
hope to develop a more in-depth understanding of how training 
budgets are formulated. If we identify any common weaknesses in 
training activities, the Subcommittee may consider legislative 
remedies.
    I want to say at this time, in all fairness, that part of 
the problem, I think, that the administration is having is that 
Congress does not appreciate the importance of training, 
incentives, quality, and some of the other things that are 
important to human capital. When budget time comes around, 
members say, ``Let us get rid of that, let us get rid of 
them,'' and they just do not appreciate how important it is 
that you have a good team.
    My staff has met with officials from the eight agencies 
which we have surveyed to date. They shared several 
observations which, although not applicable to the whole 
Executive Branch, are nevertheless illuminating. Almost all the 
agencies said their employee training budgets were inadequate 
and that they could use additional training funds. That is 
probably a lay-up shot. [Laughter.]
    Senator Voinovich. When agencies undergo budget cuts, 
training is almost always one of the areas hit first and 
hardest. Costs such as administration, payroll, physical plant, 
and benefit payments are either fixed and cannot be cut or are 
mandatory expenditures.
    As I mentioned earlier, most agencies spread their training 
dollars throughout their budget. This is often done 
intentionally so as to make it difficult for OMB or the 
appropriations subcommittees to identify training money and 
reprogram it. In other words, some agencies attempt to hide 
their training money.
    Historically, most agencies had decentralized training 
activities. Several agencies are centralizing their training 
activities to help identify training requirements.
    Several of the agencies are unable to provide information 
on their training budgets from previous years because their 
recordkeeping is poor or nonexistent. This begs the question, 
how can an agency plan its future training activities if it has 
no reliable records on its past training activities? You have 
to have some baseline to start with.
    Some agencies find that they need much better management 
succession programs so they can grow future leaders for their 
agency.
    Finally, I would like to take a few minutes to discuss 
today's hearing in the context of the Subcommittee's overall 
efforts and goals. Any of you that have followed this series of 
hearings have heard me discuss the human capital crisis and 
changing the culture of the Federal workforce and the 
workplace.
    Through six hearings since last July, the Subcommittee has 
examined union-management partnerships, management reform 
initiatives, incentive programs, and training, which is the 
focus of today's hearing. Each issue is just one component in 
building a world-class civil service, and each hearing has 
built upon the last. There is an important synergy between 
these elements, and if one is weak, the other components are 
affected to the detriment of Federal employees and the people 
they serve.
    It has been our goal through these hearings to demonstrate 
the synergy that exists throughout the Federal Government and 
to stress that substantial change in all of the areas we have 
covered in our hearings is necessary if we are to achieve real 
and lasting improvements in government operations. At the 
conclusion of these hearings, I hope the Subcommittee can issue 
a report that will identify our findings and, most importantly, 
recommendations that will correct years of inattention to our 
human capital.
    I understand that Senator Durbin is detained but will be 
here and I expect that when he arrives he will have a statement 
to make.
    Our first panel today is composed of representatives from 
the Executive Branch and the General Accounting Office. We have 
with us today the Hon. John U. Sepulveda, who is the Deputy 
Director of the Office of Personnel Management and will 
describe OPM's role in setting training policies and how they 
work with OMB in this regard.
    The Hon. Diane M. Disney is the Deputy Assistant Secretary 
of Defense for Civilian Personnel Policy, and we have asked her 
to describe how the Defense Department assesses its training 
and technical requirements for its civilian workforce as well 
as the culture of the Department, which stresses the importance 
of training.
    Michael Brostek is an Associate Director of Federal 
Management and Workforce Issues at the U.S. General Accounting 
Office, and has testified here before. We have asked Mr. 
Brostek to discuss the importance of training in human capital 
development.
    Our second panel will provide us with a variety of 
perspectives. First of all, we are lucky to have with us Bobby 
L. Harnage, Sr. He is the National President of the American 
Federation of Government Employees. He will provide us with the 
perspective of Federal workers, the people who I call the ``A 
Team.'' I am eager to learn if Federal workers think that the 
training they are provided is adequate, and if not, what does 
AFGE believe needs to be done to improve it and create an 
environment in which workers can grow and do a better job of 
serving their internal and external customers.
    Then we have with us Thomas J. Mosgaller. He is the Vice 
President of the American Society for Quality.
    And Tina Sung, who is President and CEO of the American 
Society for Training and Development. She is also the former 
Director of the Federal Quality Consulting Group. We have asked 
Mr. Mosgaller and Ms. Sung to discuss private sector education 
and training practices and how the Federal Government compares 
in general with leading private sector companies.
    I want to thank all of you for coming this morning. We look 
forward to your testimony. As is the custom of this 
Subcommittee, I would ask all of you to raise your hands and 
take an oath as to the voracity and truthfulness of your 
statements, if you will stand.
    Do you swear that the testimony you are about to give 
before this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Sepulveda. I do.
    Dr. Disney. I do.
    Mr. Brostek. I do.
    Ms. Sung. I do.
    Mr. Harnage. I do.
    Mr. Mosgaller. I do.
    Senator Voinovich. Let the record show that all of the 
witnesses have answered in the affirmative.
    Mr. Sepulveda, will you come up, and Dr. Disney and Mr. 
Brostek? And it is pronounced Sepulveda?
    Mr. Sepulveda. Sepulveda.
    Senator Voinovich. Sepulveda. Pronouncing Sepulveda is like 
Voinovich. It is tough to get, but once you get it, you will 
not forget it.
    Mr. Sepulveda. You are right.
    Senator Voinovich. Again, I want to welcome you today. Mr. 
Sepulveda, we look forward to your testimony. I would, just 
before we get started, like to mention that I would appreciate 
your keeping your remarks to no more than 5 minutes. Your 
written testimony will become part of the record. In addition 
to that, we would appreciate your entertaining some questions 
that may not be raised here at the hearing so that we have a 
better insight and a full picture.

TESTIMONY OF JOHN U. SEPULVEDA,\1\ DEPUTY DIRECTOR, U.S. OFFICE 
                    OF PERSONNEL MANAGEMENT

    Mr. Sepulveda. Thank you, Mr. Chairman and the Members of 
the Subcommittee. We appreciate the opportunity to participate 
in your continuing effort to assess and enhance the Federal 
Government's commitment to training its employees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sepulveda appears in the Appendix 
on page 19.
---------------------------------------------------------------------------
    Let me assure you that we share your firm belief that 
Federal employees must have the training and education they 
need to do their jobs and to meet the challenges of a rapidly 
changing workplace. In fact, OPM is dedicated to ensuring that 
agencies receive the guidance, tools, and leadership to deliver 
the needed training to their employees and we already have in 
place a strong foundation to deliver this assistance and are 
interested in working with you to increase the efficiency and 
the effectiveness of our efforts.
    We recognize your concern that Federal employees may not be 
getting the training and education they need to maximize their 
talents and really make a difference in the lives of the 
American people. We are working with the Office of Management 
and Budget, other agencies, and Congress to build a world-class 
workforce that can compete with the best that industry has to 
offer.
    The government's human resources, our people, are our most 
valuable asset and we must nurture their potential and invest 
in their development. Studies have shown that successful 
corporations continually invest in their people. Like the 
private sector, the government must consider employee training 
and development an investment that helps us attract, develop, 
retain the talented people we need to accomplish our missions.
    Recognizing this, in January 1999, President Clinton 
provided pivotal direction to government leaders in Executive 
Order 13111 on using technology to improve training 
opportunities for Federal employees. Our Director, Janice 
Lachance, is the chair of that task force. The use of 
technology in Federal training and education is increasing and 
we expect it to increase even more as a result of the work of 
the task force.
    The task force members are identifying issues and options 
and recommendations that will provide better and more 
accessible learning opportunities through the use of 
technology, and OPM, as I said, has been leading the task force 
in this effort and we are collaborating with key stakeholders, 
the Federal information, financial, and acquisition communities 
to help them redefine their competencies and help them get the 
kind of training they need to be effective. One of the major 
strategic objectives is to lead the transformation of training 
and development in the Federal Government to focus on 
performance improvement and results which support agency 
mission and goals.
    OPM has two principal roles with respect to training of the 
Federal workforce. The first is to set government-wide training 
policies Federal agencies use to administer their own internal 
training programs. The second is to provide executive 
development and managerial training for the leaders who direct 
the work of our more than 1.8 million employees.
    What is important about this is that we want to emphasize 
that continual learning for our current executives and 
developmental opportunities for future executives are critical 
for delivering agency results, and we view continuing 
development not as an add-on for a successful executive but 
what you have to do to be successful.
    We will continue to meet our statutory mandate to approve 
and monitor formal agency candidate development programs, which 
is a concern that I am sure you have, that we need to have the 
right training to develop the kinds of executives that we are 
going to need in the future. We have been working with agencies 
to develop candidate development programs, and, in fact, we 
have 16 formal plans in place at this time and we are working 
with agencies to develop other candidate development programs 
to develop the talent that will begin to be available for those 
agencies in the future.
    When OPM privatized its training operations back in 1995, 
we purposely held on to executive development because we 
concluded that it was important for the Federal Government to 
be responsible for providing the training to our executive 
leadership to provide that public perspective and the skills 
they need.
    We are also working with our partners to develop an 
Internet forum that will allow executives to have voluntary 
mobility in different agencies and assignments in different 
agencies to get the kind of experience, the broad-based 
experience, to make them even more effective.
    And we are considering a government-wide authority for 
private sector exchanges which will allow Senior Executive 
Service (SES) members to go into the private sector and get the 
experiences and some best practices and come back into the 
Federal Government and benefit the agencies that they are 
working in.
    Continuous investment in learning and development is 
critical for improved government performance, and we recognize 
that many Federal agencies need to do a better job of aligning 
their learning and development initiatives with the strategic 
direction of the agency. Many agencies are still struggling 
with integrating human resources management goals and 
objectives and strategies into their agency strategic plans.
    Having recognized this problem, the President in his fiscal 
year 2001 budget added a new priority management objective 
which charges OPM with helping agencies to align Federal human 
resources to support agency goals. Additionally, the Executive 
Order charges every agency's strategic plan to identify 
training and education as part of the strategic process. As 
opposed to something you do after you develop your strategic 
plan, it should be integrated in the development of your 
strategic plan.
    And, indeed, we have been working with OMB to make that 
part of the budgetary process that it puts each and every 
agency through, to have the information that they need to 
assess whether or not agencies are, indeed, focusing training 
as part of their strategic plan and, indeed, make them 
accountable through the budgetary process.
    We have other programs that allow us to develop the 
training potential of our employees, including something that 
came out of that Executive Order which is the individual 
learning accounts, which essentially permit managers to put 
into an account money or hours or both that will allow 
employees to draw down from that account to get the kind of 
training, whether it is provided within the government or 
outside of the government, to get the kind of training they 
need to be effective, and we are really excited. We have about 
13 pilots underway and we want to see how feasible that 
individual learning account program is.
    In closing, again, we will obviously provide additional 
information and answer any questions you may have about other 
programs that we have going on to provide the kind of training 
that is necessary to build that world-class workforce.
    Senator Voinovich. Thank you very much.
    Mr. Sepulveda. Thank you.
    Senator Voinovich. Dr. Disney.

   TESTIMONY OF DIANE M. DISNEY, Ph.D.,\1\ DEPUTY ASSISTANT 
  SECRETARY, CIVILIAN PERSONNEL POLICY, DEPARTMENT OF DEFENSE

    Dr. Disney. Mr. Chairman, Members of the Subcommittee, I am 
very pleased to be here today to testify about the education 
and training of employees in the Department of Defense.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Disney appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    DOD is probably the premier organization for transforming 
raw talent into highly competent performers. This excellence 
stems in part from its unique structure and legal authority. 
Because there is no lateral entry, anyone wishing military 
advancement must develop higher order knowledge and skills 
while in the service. The up-or-out system permits us to keep 
only those who do the most for self-improvement. Also, under 
Title 10 of the U.S. Code, the services can specify absolute 
requirements for positions.
    For civilians, the matters are less clear cut. Governed 
primarily by Title 5, civilians are generally expected to bring 
the necessary education and training with them. As a result, 
the Department has long invested more in the military, whose 
future it controls, than in the civilians, who are part of a 
Federal-wide system. However, DOD is transforming its approach 
to civilian education and training to focus on the idea of 
investment rather than cost.
    Let me set the stage. Since fiscal year 1989, DOD's 
civilian employment has declined 37 percent. This has brought 
an increase in the average age, increasing professionalization, 
and improvement in educational levels. Outsourcing, base 
closure, and technology have reduced the number of positions 
requiring limited education and training. Simultaneously, 
advanced technology, contract oversight, and a much more 
complex mission demand more advanced education and capacity.
    To add complexity, our country's low unemployment rate has 
made competition for talent extremely difficult. Therefore, we 
must invest more in training and education. To do so, we have a 
four-part strategy:
    First, research into what is happening and why; second, 
careful accession management; third, development; and finally, 
transition management for the smooth transmission of 
institutional knowledge and the maintenance of capability.
    We have conducted several studies to determine the 
competencies that we will need in the future. Several broad 
themes have emerged and are enunciated in my written testimony. 
To fulfill these, DOD has been providing education and training 
from both functional and component perspectives. For example, 
Acquisition Technology, and Logistics has a policy of 
continuous learning. Our intelligence community has assessed 
its needs to develop a workforce with a community perspective 
and strategic outlook. And another speaker today is going to 
outline some activities within our Defense Finance and 
Accounting Service.
    Then there is our very special effort in management 
development. In 1997, we created our Defense Leadership and 
Management Program. This is our first systematic Department-
wide program to prepare civilians for key leadership positions. 
It requires a rotational assignment, professional military 
education at the senior level, and at least 10 advanced level 
graduate courses in subjects important for defense leaders.
    DLAMP has heightened awareness of the need for similar 
investments in other areas. To that end, the Defense Science 
Board's task force has strongly endorsed that we expand DLAMP 
and recommended a preparatory program for the GS-9 through GS-
12 levels, and we intend to implement that recommendation. The 
task force also urged legislative flexibility to permit payment 
for degrees and certificates in relevant fields of study.
    In addition, the military departments offer a range of 
educational opportunities. The Air Force, for example, uses the 
military model of life-cycle management for its centrally 
managed, functionally led career programs. The Army also has a 
centrally managed and funded system. About 40 percent of the 
Army's civilians participate in the 22 occupationally oriented 
career programs. Navy's operations are somewhat more 
decentralized, but the focus still shifts over one's career 
from the functional and technical to leadership development. 
Beyond these, individual DOD offices sponsor seminars, 
workshops, and short courses to meet specific needs.
    In sum, then, DOD recognizes that the effective management 
of human capital calls for a well-tuned program of training, 
education, and development. That is why we are expressly 
dedicating resources to investing in our civilian workforce.
    That concludes my remarks and I will be pleased to answer 
any questions that you have.
    Senator Voinovich. Thank you very much. Mr. Brostek.

 TESTIMONY OF MICHAEL BROSTEK,\1\ ASSOCIATE DIRECTOR, FEDERAL 
 MANAGEMENT AND WORKFORCE ISSUES, GENERAL GOVERNMENT DIVISION, 
                 U.S. GENERAL ACCOUNTING OFFICE

    Mr. Brostek. Mr. Chairman and Members of the Subcommittee, 
every time an agency changes how it does business, employees 
need new skills. Changes in agencies' strategies for 
accomplishing their missions changed during the 1990's and 
likely will continue to change in the future. Thus, training 
and retraining employees is critical to achieving meaningful 
improvements in agencies' performance. In short, investing in 
the people side of government, those who actually run the 
programs, increases their capacity and the government's 
capacity for high performance.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brostek appears in the Appendix 
on page 46.
---------------------------------------------------------------------------
    The changes many agencies have been making in the way they 
carry out their missions flow from a changing environment. 
Technology is one driver of those changes. The IRS, for 
instance, is moving from a paper to an electronic environment 
and expects soon to have most taxpayers filing their forms 
electronically. Recent and continuing downsizing also drove 
change, with agencies consolidating operations, automating 
processes, and often making more use of contractors.
    There is little reason to believe that change is going to 
stop. In this environment, poorly or inadequately trained 
employees can hamper agency operations. For example, the 
Federal Government spends tens of billions of dollars 
purchasing goods and services every year. As early as 1972, 
Congress recognized that the acquisition workforce was often 
inadequately trained for this task, and in several statutes it 
pressed to improve training. Yet earlier this year, we reported 
that neither the General Services Administration nor the 
Veterans' Administration could ensure that all members of the 
acquisition workforces were receiving the core training and 
continuing training that they needed. Inadequate workforce 
training can put at risk the billions of dollars of 
procurements that these agencies make.
    High-performing organizations consistently take three steps 
to design and implement training and development programs. 
First, they identify the knowledge, skills, and abilities and 
behaviors that employees need to support the mission and goals 
of an organization and they determine to what extent their 
employees possess those competencies. Second, they design 
training programs to meet any identified gaps in competencies. 
And finally, they evaluate the training programs that they do 
have to ensure that they are actually increasing employees' 
competencies and the organization's performance.
    We collected information on how four agencies, the Defense 
Finance and Accounting Service, Health Care Financing 
Administration, Immigration and Naturalization Service, and the 
Department of State, were addressing each of these steps. In 
summary, we found that the glass was half full, or 
alternatively, half empty for all of these steps.
    For the first step of identifying any gaps in the 
competencies of employees, the glass was half full in that all 
the agencies recognize the importance of this fundamental step 
and officials said they had identified competencies for all, or 
more commonly some, of their workforce. It was half empty in 
that efforts to define competencies were just getting underway 
in some cases and were not planned in others.
    For the second step of designing and delivering training 
courses to address identified competency gaps, the glass again 
was half full in the positive sense because all four agencies 
at least had training curricula for employees in selected 
occupations and training was being provided. The glass was half 
empty in that such formalized training requirements generally 
existed only for selected occupations, and due to limited 
resources, some agency officials said they could not train all 
employees that needed training.
    For the final step, evaluating whether the training 
provided did increase employee competencies, the glass was half 
full again in that agencies generally assessed how satisfied 
were employees with the training that they received, and one 
agency had a more extensive evaluation system for certain 
occupations. The glass was half empty because employee 
satisfaction surveys that the agencies generally used are among 
the least powerful tools for determining how successful 
training is and because agencies are only beginning to develop 
better evaluation tools.
    One theme ran through our contacts with the agencies. 
Officials said a lack of staff and resources were affecting 
their ability to deliver training that they believed was 
appropriate to develop and maintain the skills needed by their 
workforce. This is a difficult issue that we did not have time 
to assess in depth. However, in general, we believe agencies 
need to make a business case for adequate training funds. That 
is, they need to identify what training is needed and how that 
training is likely to produce a return on the training 
investment in terms of improved performance by individuals and 
by the agency.
    If agencies are unable to obtain what they believe to be 
adequate resources through the appropriations process, they may 
need to consider internal reallocations of resources to cover 
their training needs.
    In conclusion, training is at least as important now as it 
has ever been to improving the performance of Federal agencies. 
Recognition of the importance of training to high performance 
seems to be growing within agencies, but agencies generally 
make a case that they lack staff and other resources to provide 
appropriate training. Resolving the resource issue will not be 
easy, but must start with an informed analysis of training 
needs based on the competencies that staff need to carry out 
the mission of the agency. When training is provided, it should 
be assessed to determine whether the training is indeed 
improving performance.
    Thank you for the opportunity to testify. I would be happy 
to answer questions.
    Senator Voinovich. Thank you very much.
    We have been joined by Senator Akaka. Senator Akaka, do you 
have a statement that you would like to make?

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Yes, Mr. Chairman. I wish to thank you very 
much for having this hearing and for the opportunity to sit 
with you and the Subcommittee as you continue this series of 
hearings on the Federal workforce. As the Ranking Member of the 
Federal Services Subcommittee, I have an obvious interest in 
how the government empowers its employees to meet the 
challenges of the 21st Century.
    As the Chairman and our distinguished panelists know, the 
Federal Government is at a human resources crossroads due to 
downsizing, contracting out, flattened budgets, emerging 
technologies, and an historically low unemployment rate. 
Although training programs are critical to skills development, 
Federal agencies were forced to cut back on training in the 
past decade. There are hopeful signs, however, of a renewed 
emphasis on training by the issuance of Executive Order 13111, 
which requires agencies to use technology to improve training, 
to these series of hearings.
    I am sure most of you read last week's Washington Post on 
the ``people crisis in the Federal Government.'' The six 
articles brought into focus the changes facing the Federal 
Government and its workforce. One piece in particular caught my 
attention and that was how the number of clerical positions 
have been cut by more than half in the last decade. Almost one 
in seven Federal employees worked in predominately clerical 
positions in 1989. The figure is now about one in 13.
    However, clerical-type positions are in the top four new-
hire occupations, according to OPM. It is important that 
secretarial and clerical employees who are called on to perform 
a variety of roles be afforded training opportunities to 
broaden their skills. Furthermore, as old clerical job skills 
have evolved, there is a need to make sure these individuals 
have new skills. It would be unfortunate to shortchange 
training for line employees in the push to ensure development 
and specialized training for executives and managers.
    As a former school administrator, I firmly believe that 
education and training are the anchor to a successful and 
strong workforce. I am interested in looking at the legislative 
proposals mentioned by Mr. Sepulveda, in his written testimony, 
that would provide agencies with enhanced training 
opportunities for Federal employees.
    Again, Mr. Chairman, I really appreciate joining you today 
and I am hopeful that this hearing will shed new light on the 
critical need to reinvest in training programs. Thank you very 
much, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Akaka.
    I would like to put in a plug for something that, Dr. 
Disney, we are trying to do, and that is our Department of 
Defense Civilian Workforce Realignment Act, which Senator Akaka 
may know a little something about. We have discovered on the 
civilian side of the DOD that they have got some very, very 
severe problems and don't have the flexibility to get the job 
done.
    We are hopeful that we can get Congress to pass it so that 
you can have more flexibility to deal with the challenges that 
you have in the Department of Defense. We tried to do that with 
one agency last year and it was the feeling of my colleagues 
that not only do we need it in Ohio, but we need it all over 
the country in the civilian workforce. So, hopefully, we will 
have some success with that, but there is no question that we 
need to have a lot more flexibility in terms of how you retain, 
hire, train, and all the other things that you need to have 
that quality workforce.
    I would like to ask all three of you the same question. Is 
the Federal Government spending enough money on training? Mr. 
Sepulveda.
    Mr. Sepulveda. Let me take the first stab at that question 
if I may, Mr. Chairman. I think it really is going to depend on 
the individual department defining what their missions are, 
what their specific programmatic goals are. I do not think you 
can do that in a centralized or macro way. You have to do it 
agency by agency. Each agency has to define what it is they 
need in terms of competencies to meet their missions and then 
begin to do the hard work of identifying the kinds of training 
programs that they will need to have developed and then that 
will lead to the kind of budgeting that is important.
    That is why, again, the President's priority management 
objective begins to lay down that foundation. It essentially 
forces agencies as part of the strategic planning process to 
identify their training needs and then has OMB work with them 
in the budgeting process to identify appropriate resources.
    Senator Voinovich. I applaud that effort. This is the 
eighth year of the administration. My recommendation would be 
that if you did anything for the next administration, that you 
would really do everything in your power to identify and answer 
the questions that I think Mr. Brostek made reference to--what 
are the skills that are needed and what is the training that is 
needed.
    What talent are they going to need and how do you take the 
talent that you have and get it up to where it should be. The 
next group is going to have a very difficult task ahead of them 
if they do not have it in the transition plans from the various 
agencies. I went through that when I left the governor's job. 
That is one of the best things that you could do for the future 
of the Federal workforce.
    Mr. Sepulveda. If I may, Mr. Chairman, I am happy to report 
that we have underway a major effort to develop a workforce 
planning model we are hoping to have available to agencies by 
the year 2001 and we are working on a prototype which is 
essentially an automated system that will enable agencies to 
use that model to identify the specific competencies they need 
on an agency-by-agency basis.
    And again, we have been working with the CFOs and the 
information technology community in the Federal service, as 
well as the acquisition community, the procurement people, to 
identify what needs they have for training and competencies, 
not just current needs but obviously needs in the near future. 
We have made a lot of progress in those specific areas, so I am 
happy to report that we have some efforts underway that I think 
are going to be very helpful to agencies in the near future.
    Senator Voinovich. Dr. Disney.
    Dr. Disney. If I could comment on that, I would like to 
reference Senator Akaka's comments earlier. As a former 
professor, I, too, think you can never spend enough on 
education and training. Though I cannot speak for the other 
agencies, I must go back to an earlier point, which is that the 
Department of Defense has eliminated 420,000 civilian positions 
in the past decade and is programmed to eliminate some 70,000 
more. That means we have fewer people and these people are 
charged with doing a mission that gets more complex every day. 
That requires more investment in their education and training 
than in the past, and that can be accomplished both through 
increased dollars and through increased flexibility.
    Senator Voinovich. We had a hearing on the National 
Partnership for Reinventing Government, the emphasis of which 
was saving money and cutting employees. When you cut 70,000 
employees, it is like saying you are going to cut Medicare 
expenses 15 percent each year. The issue is whether or not you 
have the resources to get the job done, and it seems to me that 
ought to be the major goal of the Department of Defense. What 
do you need in terms of people in order to do the job? That 
ought to be the standard and not we are going to get some high 
marks because we have fewer government employees. Again, I know 
you have some really severe problems in some serious areas, and 
if you could get that list together, it would be very helpful.
    Dr. Disney. Yes, sir. We are devoting a great deal of time 
and energy to our workforce planning and to finding new ways of 
investing in the people who are already there.
    Senator Voinovich. I really think that you have two 
problems here, attracting people into government and retention. 
I think whether you retain or lose this 21 percent of employees 
that could take early retirement is going to have a lot to do 
with the work environment. If they see an environment where 
they are not involved, if they see an environment where there 
are no incentives, if they have an environment where there is 
no training, then a lot of them are going to say goodbye, and 
so I think that training is critical to just keeping those 
people that we have on board.
    Mr. Brostek.
    Mr. Brostek. Well, first, I would like to agree with Mr. 
Sepulveda. I think that the correct amount of training funds 
will depend upon a business case analysis that each agency must 
do for its training needs.
    I would also go back to your own opening statement, Mr. 
Chairman, where you noted how difficult it has been for you to 
find out how much agencies are actually spending on training. 
We do not have very good data to begin to make the assessment 
of whether we have a shortfall. From the work that we did in 
preparation for the hearing, we did have the consistent theme 
in the people that we talked to in the agencies that they did 
not feel they did have a sufficient amount of resources to do 
appropriate training.
    One of the interesting twists on that was that they 
mentioned in more than one case that they did not have enough 
depth in their line staff so that they felt comfortable taking 
someone off of the line, away from the work that they were 
doing on a daily basis, to train them. They did not have 
somebody to backfill for the hole that was created.
    A couple of other things. This is somewhat inconsistent 
with the difficulty, I guess, that you found in trying to 
determine how much agencies are spending on training, but the 
Merit System Protection Board reported in 1995 that agencies 
spent about 0.75 percent of their total budgets on training and 
they contrasted that to about 10 percent of budgets being spent 
by high-performing private organizations on training. So if 
there is any merit to the figures that MSPB had, there is a 
significant gap, or was at least in 1995, in the training 
expenditures of the Federal Government versus high-performing 
companies.
    Senator Voinovich. What was the number on the high-
performing companies?
    Mr. Brostek. About 10 percent of their budget, I believe, 
is what MSPB reported. I do not know which companies they were 
referring to, but that was the contrast that they drew.
    The last thing I would like to say on the point is that 
there may be some room within agencies' budgets to gain some 
efficiencies in the spending of the current training dollars. 
We did a report last year in the Department of Energy in which 
we observed that there was a fair amount of duplication in the 
creation of the same kind of training course in different 
locations throughout that Department and we suggested that some 
standardization of the courses might save training dollars and 
free up some money that could be reallocated to more important 
training needs.
    Senator Voinovich. I know in the State Government, we had a 
smorgasbord of training programs that could be accessed by all 
State agencies, and rather than just have a training program 
for one agency, we tried to identify some common things that 
were needed in all agencies and give people the opportunity to 
take advantage of them.
    Mr. Sepulveda, can you identify the amount of money that is 
available to a Federal worker right now for training?
    Mr. Sepulveda. Again, that is going to be very difficult to 
arrive at because each individual agency head has a 
responsibility for determining what the training budget is for 
his or her department, and since we do not get that information 
consistently, it would be very difficult for us to even give 
you an estimate. The reality is, as was mentioned in your 
statement, in many cases, agencies have to make some hard 
budgetary decisions based on resources made available to them, 
and in many cases, they end up changing some of those 
priorities. So it is difficult to say. I am certainly not in a 
position right now to provide you that information.
    Senator Voinovich. Would it be good if, in terms of the 
budget preparation, you had a line item for training and it was 
pit in the open where people can see it? We have been getting 
information back that agencies are hiding training money 
because they are afraid that it is going to be reprogrammed or 
that Congress may come in and zap it out. Could you set some 
standard and say that X percent of the budget would be used for 
training so that there is no hiding of it?
    Mr. Sepulveda. Again, that is why the discussions we are 
having right now with OMB on making sure that the budgetary 
guidance that they give out to all agencies for fiscal year 
2002 would have the requirement that agencies identify up front 
what resources they need for devoting to their strategic goals.
    Senator Voinovich. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Sepulveda, this morning's ``Federal Diary'' column 
noted that 71 percent of the career Senior Executive Service 
would be eligible for retirement in the year 2005. I was, 
therefore, interested in your testimony which focused in part 
on the need to train and develop the SES corps. Could you be 
more specific on how the government would help future SES 
members work in the private sector?
    Mr. Sepulveda. You mean that proposal to have the exchange 
that we are working on. We feel that Federal executives would 
benefit greatly from an opportunity to serve, or do a 
rotational assignment, if you will, in the private sector as 
they are able to do now either within their agency or outside 
of their agency, and that is a proposal that we are developing, 
and hopefully with the approval of OMB, we can move that 
forward.
    But that is not the only thing that we have in our supply 
of tools to address the succession issue that you are 
mentioning. As I mentioned before, we have been working with 
agencies to develop candidate development programs which would 
allow them to identify executives who have the potential to 
enter the Senior Executive Service and put them through a year-
long or in some cases 2-year-long training program so they will 
be certified at the end of that program to enter the SES, to 
compete for SES positions.
    The other thing we do at OPM is that we are the agency that 
oversees our Federal Executive Institute, which is the 
training, it is the Harvard, if you will, of the Senior 
Executive Service for Federal executives, and we have two 
Management Development Centers. We train approximately 8,000 
executives and managers each and every year at those two 
Management Development Centers and at the FEI.
    In addition, we have been working with Federal agencies 
across the Federal Government, helping them to focus on their 
succession issues, in other words, helping them to develop 
internal programs to identify the leadership they will need to 
have in place to be ready to walk into the job as other 
executives begin to retire. So that has been part of our 
strategy for the last several years and we are hoping that one 
of the things that we could also do, as I mentioned before, is 
have that proposal which will allow us to also have 
opportunities for these executives to go into the private 
sector and come back to the government with those skills.
    Senator Akaka. I share with you your opinion about 
government human resources. In your testimony, you said the 
Federal workforce is an asset and that we must nurture their 
potential and interests and their development so that we may 
have better individuals and organizational performances. I want 
you to know that I fully support providing cutting-edge 
development and training opportunities, as we just talked about 
with the Senior Executive Service. I know that OPM works 
closely with all agencies in training programs; however, what 
percentage of training budgets are generally spent on executive 
and management training versus line employee training?
    Mr. Sepulveda. I think that is going to be difficult for me 
to be able to answer because, again, agencies will determine on 
an individual basis the number of executives or potential 
executives that need to be trained, the kind of training. They 
will determine whether they send their executives to our 
Federal Executive Institute or our Management Development 
Centers or whether they send them to other institutions in the 
private sector or in the university arena to get their 
training.
    Senator Akaka. How will agencies integrate their training 
activities into their performance reports and who is providing 
technical guidance in these efforts?
    Mr. Sepulveda. As I mentioned earlier, Senator, we have 
been working with OMB to set up that system, to set up that 
structure that will allow the agencies to identify what their 
needs are, identify their training strategies, and plug that 
into the budgetary process and plug that into their performance 
reports, as well. We are looking forward to having that out 
through the OMB Circular A-11 fairly soon, and that will 
identify specifically the process.
    Senator Akaka. How much cross-training is done by agencies 
that are located within the same geographical region?
    Mr. Sepulveda. I think a lot of that is done, actually. We 
have in our agency right now a member of the Department of 
Labor Candidate Development Program and he is doing a rotation 
in our agency for several months and then he will go off to 
another agency. That happens all the time. So I think that is 
part of the development process. We want to encourage agencies 
to send their potential executives to other agencies to get 
that broad-based experience.
    Senator Akaka. Dr. Disney, you alluded to down sizing 
which, of course, DOD has done. You said in your testimony that 
jobs remaining in DOD require more advanced education and 
training from those of the past. We know that the whole 
structure of DOD is changing, so the job of education and 
training, of course, is priority for you.
    Dr. Disney, I was very interested in your explanation of 
the differences between military personnel who enter at a low 
level and work up the system and the civilian Federal workforce 
who must have demonstrated skills, knowledge, and/or ability to 
enter a specific job classification. It appears that DOD is 
working to invest in its civilian population. What has been the 
most promising training and development initiative, in your 
opinion?
    Dr. Disney. I believe that is clearly the establishment of 
DLAMP, our Defense Leadership and Management Program, because 
that is the first comprehensive Department-wide effort to 
prepare people for key leadership positions, and these are at 
the 14, 15, and SES levels. It is a comprehensive multi-year 
effort, recognizing that people need advanced technical skills; 
they need experience; they need graduate education. No one 
thing by itself is sufficient.
    It also recognizes that we can no longer afford to have 
people in the very narrow stovepipes they were before. People 
in acquisition need to know about labor relations. People in 
personnel need to know how to read budgets. As we have fewer 
and fewer employees, the ones we have must be able to have a 
broader perspective and be able to understand more things than 
in the past, and that is why DLAMP is, we think, a model for 
the rest of government, and, in fact, it is becoming a model 
for the defense ministries in other countries, as well.
    Senator Akaka. Now that you have mentioned the model, could 
this model be utilized by OPM in developing similar training 
programs for non-defense Federal workers?
    Dr. Disney. Well, certainly the concept of combining the 
rotational assignments and the advanced education could be used 
anywhere.
    Senator Voinovich. Senator Akaka, I have to interrupt. I am 
so embarrassed. I am new to this place, and maybe you are 
familiar with this. We have just received a call from the cloak 
room informing us that we have to adjourn this hearing no later 
than 11 o'clock under Rule 22. Committees or Subcommittees need 
unanimous consent to meet 2 hours after we go into session. As 
you know, Senator, there is usually no problem, but today your 
party made a blanket objection, meaning that no Committee or 
Subcommittee may meet after 11 o'clock.
    So we have to adjourn now or else a point of order can be 
raised against anything on the floor. This is new to me, but 
are you familiar with this rule, Senator?
    Senator Akaka. Thank you very much, Mr. Chairman. We follow 
the policies and the rules. Thank you.
    Senator Voinovich. So I am really embarrassed that we have 
to adjourn this hearing. I want to say to the witnesses that 
have come, some from out of State, that I apologize for your 
not having an opportunity to testify today. I had looked 
forward to asking more questions of our first panel here and 
hearing from the second panel.
    For whatever it is worth, for those that did not testify 
today, I promise you that I will personally read your 
testimony. I cannot guarantee that at every hearing, because as 
you can well imagine, there is a lot of testimony that comes 
in. But in this particular case, I want you to know that 
because I have not had the chance to hear you, I will read your 
testimony and it will be in the record. We will fold it into 
the recommendations that we are going to make on how to improve 
training, which is so very important to the future of our 
Federal workforce.\1\
---------------------------------------------------------------------------
    \1\ The prepared statements of Ms. Sung, Mr. Harnage, Mr. 
Mosgaller, and Ms. Lee appears in the Appendix on pages 61 thru 85 
respectively.
---------------------------------------------------------------------------
    We again thank the witnesses.
    The Subcommittee is adjourned.
    [Whereupon, at 11:03 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6087.001

[GRAPHIC] [TIFF OMITTED] T6087.002

[GRAPHIC] [TIFF OMITTED] T6087.003

[GRAPHIC] [TIFF OMITTED] T6087.004

[GRAPHIC] [TIFF OMITTED] T6087.005

[GRAPHIC] [TIFF OMITTED] T6087.006

[GRAPHIC] [TIFF OMITTED] T6087.007

[GRAPHIC] [TIFF OMITTED] T6087.008

[GRAPHIC] [TIFF OMITTED] T6087.009

[GRAPHIC] [TIFF OMITTED] T6087.010

[GRAPHIC] [TIFF OMITTED] T6087.011

[GRAPHIC] [TIFF OMITTED] T6087.012

[GRAPHIC] [TIFF OMITTED] T6087.013

[GRAPHIC] [TIFF OMITTED] T6087.014

[GRAPHIC] [TIFF OMITTED] T6087.015

[GRAPHIC] [TIFF OMITTED] T6087.016

[GRAPHIC] [TIFF OMITTED] T6087.017

[GRAPHIC] [TIFF OMITTED] T6087.018

[GRAPHIC] [TIFF OMITTED] T6087.019

[GRAPHIC] [TIFF OMITTED] T6087.020

[GRAPHIC] [TIFF OMITTED] T6087.021

[GRAPHIC] [TIFF OMITTED] T6087.022

[GRAPHIC] [TIFF OMITTED] T6087.023

[GRAPHIC] [TIFF OMITTED] T6087.024

[GRAPHIC] [TIFF OMITTED] T6087.025

[GRAPHIC] [TIFF OMITTED] T6087.026

[GRAPHIC] [TIFF OMITTED] T6087.027

[GRAPHIC] [TIFF OMITTED] T6087.028

[GRAPHIC] [TIFF OMITTED] T6087.029

[GRAPHIC] [TIFF OMITTED] T6087.030

[GRAPHIC] [TIFF OMITTED] T6087.031

[GRAPHIC] [TIFF OMITTED] T6087.032

[GRAPHIC] [TIFF OMITTED] T6087.033

[GRAPHIC] [TIFF OMITTED] T6087.034

[GRAPHIC] [TIFF OMITTED] T6087.035

[GRAPHIC] [TIFF OMITTED] T6087.036

[GRAPHIC] [TIFF OMITTED] T6087.037

[GRAPHIC] [TIFF OMITTED] T6087.038

[GRAPHIC] [TIFF OMITTED] T6087.039

[GRAPHIC] [TIFF OMITTED] T6087.040

[GRAPHIC] [TIFF OMITTED] T6087.041

[GRAPHIC] [TIFF OMITTED] T6087.042

[GRAPHIC] [TIFF OMITTED] T6087.043

[GRAPHIC] [TIFF OMITTED] T6087.044

[GRAPHIC] [TIFF OMITTED] T6087.045

[GRAPHIC] [TIFF OMITTED] T6087.046

[GRAPHIC] [TIFF OMITTED] T6087.047

[GRAPHIC] [TIFF OMITTED] T6087.048

[GRAPHIC] [TIFF OMITTED] T6087.049

[GRAPHIC] [TIFF OMITTED] T6087.050

[GRAPHIC] [TIFF OMITTED] T6087.051

[GRAPHIC] [TIFF OMITTED] T6087.052

[GRAPHIC] [TIFF OMITTED] T6087.053

[GRAPHIC] [TIFF OMITTED] T6087.054

[GRAPHIC] [TIFF OMITTED] T6087.055

[GRAPHIC] [TIFF OMITTED] T6087.056

[GRAPHIC] [TIFF OMITTED] T6087.057

[GRAPHIC] [TIFF OMITTED] T6087.058

[GRAPHIC] [TIFF OMITTED] T6087.059

[GRAPHIC] [TIFF OMITTED] T6087.060

[GRAPHIC] [TIFF OMITTED] T6087.061

[GRAPHIC] [TIFF OMITTED] T6087.062

[GRAPHIC] [TIFF OMITTED] T6087.063

[GRAPHIC] [TIFF OMITTED] T6087.064

[GRAPHIC] [TIFF OMITTED] T6087.065

[GRAPHIC] [TIFF OMITTED] T6087.066

[GRAPHIC] [TIFF OMITTED] T6087.067

[GRAPHIC] [TIFF OMITTED] T6087.068

[GRAPHIC] [TIFF OMITTED] T6087.069

[GRAPHIC] [TIFF OMITTED] T6087.070

[GRAPHIC] [TIFF OMITTED] T6087.071

[GRAPHIC] [TIFF OMITTED] T6087.072

[GRAPHIC] [TIFF OMITTED] T6087.073

[GRAPHIC] [TIFF OMITTED] T6087.074

[GRAPHIC] [TIFF OMITTED] T6087.075

[GRAPHIC] [TIFF OMITTED] T6087.076

[GRAPHIC] [TIFF OMITTED] T6087.077

                                   - 

</pre></body></html>
